      United States Department of Agriculture




Office of Inspector General
Farm Service Agency Compliance
Activities




                                       03601-0001-22
                                       July 2014
                                           Farm Service Agency Compliance Activities 
                                                                        
                                                     Audit Report 03601-0001-22 

What Were OIG’s

Objectives
The overall audit objectives
were to determine if FSA's
compliance activities are
adequate to achieve effective
and efficient operations,
ensure compliance with laws       OIG reviewed FSA’s compliance activities  
and regulations, and ensure
government resources are used     What OIG Found
to achieve intended program
results.                          OIG determined that FSA has faced a significant reduction in its
                                  salaries and expense budget from $1.57 billion in fiscal year (FY)
What OIG Reviewed                 2010 to approximately $1.4 billion in FY 2013, a reduction of over
                                  $170 million, which left the agency with fewer resources to perform
From January 2013 through         essential work. FSA has had to make choices regarding which
March 2014, we reviewed           activities it will perform and which it will curtail. FSA continues to
FSA’s various compliance          perform a number of compliance reviews, such National Compliance
activities conducted              Reviews (NCR), Improper Payment Information Act (IPIA) reviews,
throughout FSA at the FSA         County Operations Reviews (COR), Farm Loan Program (FLP) Risk
Headquarters in Washington,       Assessments, Adjusted Gross Income compliance reviews, and end-
DC and the Georgia, North         of-year reviews. However, FSA would benefit from the development
Carolina, Tennessee, and          of an integrated compliance strategy to ensure that its limited
Texas State Offices.              resources are focused on areas posing the most significant risk of
What OIG Recommends               noncompliance. FSA officials have explained that they have not
                                  developed such a strategy because “significant amounts of time and
FSA should develop and            money can be spent designing and implementing an integrated
implement an integrated           strategy.” We maintain that developing an integrated compliance
compliance strategy to ensure     strategy should help the agency efficiently focus its limited resources
that compliance activities are    on areas of the highest risk, and ensure that FSA programs operate as
efficient and effective in        intended, with a minimum risk of fraud, waste, and abuse.
reducing the potential for
fraud, waste, and abuse. The      We found the NCRs, CORs, and IPIA reviews could be better
NCR, COR, and IPIA reviews        designed to serve their intended purposes and help in identifying
should have a clearly defined     trends of noncompliance, directing limited resources to known
goal that contributes to FSA’s    problem areas, and improving the integrity of FSA’s programs. As
overall compliance strategy       part of its compliance activities for the FLPs, FSA performs
and each activity should be       inspections of chattel security and year-end analyses, but it could not
effectively designed to achieve   ensure that all the required reviews were completed. While FSA
that purpose.                     believes that these reviews are a relatively smaller portion of FSA’s
                                  FLP compliance activities, we believe that the completion of these
                                  reviews is essential to the success and integrity of FSA’s loan
                                  portfolio of $8.3 billion. Based on FSA’s response to the report, we
                                  accepted management decision on six of the nine recommendations.
Table of Contents
Background and Objectives ................................................................................... 1
Section 1: Integrated Compliance Strategy ......................................................... 4
Finding 1: An Overall Integrated Compliance Strategy Could Help FSA
Better Use Its Limited Resources .......................................................................... 4
          Recommendation 1 ........................................................................................8
          Recommendation 2 ........................................................................................9
Section 2: Compliance Activities ........................................................................ 11
Finding 2: Changes to NCRs are Needed to Help Address Systemic Problems
................................................................................................................................. 11
          Recommendation 3 ......................................................................................14
          Recommendation 4 ......................................................................................15
          Recommendation 5 ......................................................................................15
Finding 3: Changes to County Operations Reviews Could Help FSA Improve
Review Effectiveness ............................................................................................. 17
          Recommendation 6 ......................................................................................20
          Recommendation 7 ......................................................................................20
Finding 4: Changes to the Process for Monitoring Completion of Farm Loan
Reviews Could Help FSA Better Oversee Compliance with Farm Loan
Requirements ......................................................................................................... 21
          Recommendation 8 ......................................................................................23
Section 3: Improper Payments ........................................................................... 25
          Recommendation 9 ......................................................................................27
Scope and Methodology ........................................................................................ 28
Abbreviations ........................................................................................................ 30
Exhibit A: Six Desirable Strategy Characteristic ............................................. 31
Agency's Response ................................................................................................ 33
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          July 31, 2014

AUDIT
NUMBER:        03601-0001-22

TO:            Juan M. Garcia
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Farm Service Agency Compliance Activities


This report presents the results of the subject audit. Your written response, dated July 18, 2014,
is included in its entirety at the end of the report. Excerpts from your response and the Office of
Inspector General’s (OIG) position are incorporated in the relevant sections of the report. Based
on your July 18, 2014, response and additional information received on July 23, 2014, we were
able to accept management decision on Recommendations 2, 3, 4, 5, 6, and 9 in the report. To
reach management decision on Recommendations 1, 7, and 8, please see the relevant OIG
Position sections in the audit report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Background and Objectives 
Background
In 1935, the Farm Security Administration was established within the Department of Agriculture
(USDA). Over the years, USDA operated its farm programs to improve the economic stability
of agriculture and the environment. The Federal Crop Insurance Reform and Department of
Agriculture Reorganization Act of 19941 reorganized the programs into the Farm Service
Agency (FSA). FSA is headquartered in Washington, D.C., where national administrative
functions are managed. Computational and statistical work is done in Kansas City, Missouri.
Implementation of farm policy through FSA programs is delivered through an extensive network
of field offices, consisting of more than 2,100 State and county offices.

FSA supports the delivery of farm credit, disaster assistance, and commodity and related
programs and also administers some of USDA’s conservation programs. FSA implements
Commodity Credit Corporation (CCC)-funded programs for income support, disaster assistance,
conservation, and international food procurement. FSA's salaries and expense budget was
$1.57 billion for fiscal year (FY) 2010 and $1.4 billion for FY 2013, a decrease of more than
$170 million.

Prior Audit History

The Office of Inspector General (OIG) conducted an audit of FSA’s compliance activities in
September 2005.2 In this audit, OIG found that FSA required numerous compliance reviews,
which were conducted by various staff at the national, State, and county offices. However, FSA
did not use these reviews to (1) identify systematic noncompliance trends and direct its limited
resources to known problem areas; (2) determine the causes of identified improper payments and
take actions to correct those causes; or (3) collect and assess the results of compliance reviews at
the national level. OIG concluded that FSA could achieve significant savings by employing
advanced techniques, such as statistical sampling or data mining, in selecting individual program
participants for reviews or spot checks.

OIG recommended that FSA should develop recommendations for the most efficient and
effective methods for performing compliance reviews, specifically considering the combination
of reviews and the use of advanced sampling techniques, such as statistical sampling, and
develop a schedule to implement those recommendations. OIG also recommended that FSA
record the results of all of its compliance reviews in an electronic format that facilitates national
office review and analysis, and that FSA analyze those results to identify common problems and
to determine the causes of improper payments. In addition, OIG recommended that FSA develop
a process for sharing compliance review analyses among the appropriate FSA program divisions
and units.



1
  Public Law 103-354, Federal Crop Insurance Reform and Department of Agriculture Reorganization Act of 1994,
October 13, 1994.
2
  OIG Audit 03601-0012-Ch, FSA Compliance Activities, September 2005.

                                                                     AUDIT REPORT 03601-0001-22             1
Other audits have also noted deficiencies in FSA's internal controls over its programs,
specifically OIG’s audit of FSA farm loan security in 2010.3 OIG found that FSA county
officials did not always take required enforcement actions, did not perform required inspections
of loan collateral, and had not completed required annual assessment reviews of farm operations.
FSA attributed these deficiencies to inadequate staffing levels and lack of time to conduct the
reviews because of other priorities, among other reasons.

Compliance Activities

During the previous audit,4 OIG determined that FSA's national, State, and county offices
performed over 30 different types of compliance reviews. Currently, FSA conducts different
reviews to help ensure the accuracy of farm program payments and loans, and compliance with
program requirements, including, but not limited to the National Compliance Reviews (NCR),
County Operation Reviews (COR), Improper Payment Information Act (IPIA) reviews, Farm
Loan Program Risk Assessments (FLPRA), end-of-year reviews,5 and Adjusted Gross Income
(AGI) Reviews.6

FSA county offices are required to conduct farm inspections to ensure that producers comply
with FSA program requirements. In the past, FSA program divisions would conduct individual
spot checks for each program, which was very time consuming for the county office personnel.
As a result of the previous OIG audit on FSA’s compliance activities, FSA created the NCR to
reduce the number of spot checks required and allow FSA to analyze the results of the reviews
for any trends. FSA uses a statistical sample of 2,000 program participants from the universe of
participants who received a payment in the prior year. The universe is stratified to ensure there
is a sample from all of the programs. The sample is selected by the National Agricultural
Statistics Service (NASS) and provided to FSA for the NCR. County office employees complete
the applicable questionnaires for any participants selected in their county and the results are
documented in the NCR database, which is maintained by NASS. Each year NASS provides
FSA summary reports of the results of the NCRs, and FSA distributes these reports to
appropriate program managers for review.

FSA also uses the CORs as a strategic internal control mechanism to conduct target reviews of
high risk programs and activities in county offices and ensure corrective actions are properly
implemented. County operations reviewers in the States are responsible for conducting these
reviews and the Operations Review and Analysis Staff (ORAS) is responsible for developing the
policies and procedures on how to conduct the reviews and prepare reports. CORs were
previously conducted on site in the county office; however, with recent budget reductions, FSA
performed a majority of the reviews off-site. ORAS is currently re-designing the COR process
to improve consistency. Under the new process, ORAS will be defining the scope of the CORs
to make them more uniform so that results can be analyzed for trends.7

3
  OIG Audit 03601-0018-Ch, FSA Farm Loan Security, August 2010.
4
  OIG Audit 03601-0012-Ch, FSA Compliance Activities, September 2005.
5
  End-of-year reviews are conducted to ascertain that farming operations were carried out as represented when initial
determinations were made. The purpose of the end-of-year reviews is to maintain the integrity of payment
limitation and payment eligibility provisions.
6
  AGI reviews are reviews of individuals that appear to have exceeded income limits to determine whether these
producers complied with the AGI limitations.
7
  On July 31, 2013, FSA implemented its first national office-directed COR review.

2     AUDIT REPORT 03601-0001-22
In addition to the CORs, the county operations reviewers also are responsible for completing the
IPIA reviews. The IPIA,8 as amended by the Improper Payment Elimination and Recovery Act
of 2010,9 requires agencies to annually review programs and activities they administer and
identify those which may be susceptible to significant improper payments. For programs where
the risk of improper payment is significant, agencies are required to estimate and report the
annual amount of improper payments, as well as develop a plan to reduce improper payments.
FSA’s Financial Management Division works with FSA program divisions to identify FSA
programs which may be susceptible to significant improper payments 10 and reports to the Office
of the Chief Financial Officer estimates of the annual amount of improper payments.

FSA also administers the Farm Loan Programs (FLP), which make direct loans to family farmers
and ranchers to purchase farmland and finance agricultural production. The FLPs are designed
to help family farmers who are temporarily unable to obtain private commercial credit. FSA
conducts various FLP compliance reviews, including the FLPRA. FLPRAs are conducted by
both the States and the national office. The primary objectives of FLPRA are to evaluate the
effectiveness of FLP delivery systems and ensure compliance with applicable laws and
regulations. FLPRA focuses on evaluating program delivery by assessing the condition and
performance in the risk areas of program objective, financial integrity, and program
management. During the reviews, the reviewers determine the overall degree of risk, identify the
factors contributing to the risk, and recommend or require management to take mitigating
actions. During the FLPRA, they also monitor the completion of other compliance checks,
including the chattel reviews11 and year-end analyses.12

Objectives
The overall audit objectives were to determine if FSA's compliance activities are adequate to
achieve effective and efficient operations, ensure compliance with laws and regulations, and
ensure government resources are used to achieve intended program results. In pursuing these
objectives, we evaluated the impacts of staff and budget cuts, and the agency's restructuring on
its compliance activities. We also followed up on recommendations from our prior audit.13




8
  Public Law 107-300, The Improper Payments Information Act of 2002, November 26, 2002, as amended.
9
  Public Law 111-204, Improper Payments Elimination and Recovery Act of 2010, July 22, 2010.
10
   FSA performs risk assessments on each program at least once every three years to determine whether the program
is at high-risk for improper payments. For those determined to be high risk, IPIA testing is performed.
11
   Chattel (movable security, such as livestock) reviews are conducted to confirm that the borrower retains
possession of all the property listed in the security instrument and that it is being properly maintained.
12
   The year-end analysis identifies and evaluates significant changes in the borrower’s operations, compares actual
performance to projections, and analyzes how performance can be improved.
13
   OIG Audit 03601-0012-Ch, FSA Compliance Activities, September 30, 2005.

                                                                         AUDIT REPORT 03601-0001-22              3
Section 1:  Integrated Compliance Strategy 
Finding 1: An Overall Integrated Compliance Strategy Could Help FSA
Better Use Its Limited Resources
Like many Federal agencies, FSA has faced a significant reduction in its salaries and expense
budget from $1.57 billion in FY 2010 to approximately $1.4 billion in FY 2013, a reduction of
over $170 million, which left the agency with fewer resources to perform essential work. Given
these restricted resources, FSA has had to make choices regarding which activities it will
perform and which it will curtail. FSA continues to perform a number of reviews, such as the
IPIA reviews, CORs, FLPRAs, AGI compliance reviews, and end-of-year reviews that do
contribute to compliance. However, FSA has not developed an integrated compliance strategy to
ensure that its limited resources are focused on areas posing the most significant risk of
noncompliance. FSA officials have explained that they have not developed such a strategy
because significant amounts of time and money can be spent designing and implementing an
integrated strategy. They have argued, moreover, that all relevant performance factors at FSA
indicate that the programs are performing well with little comparative risk in relation to other
more pressing needs. While OIG acknowledges FSA’s budget circumstances, we maintain that
developing an integrated compliance strategy should help the agency focus its limited resources
on areas of the highest risk, and ensure that FSA programs operate as intended, with a minimum
risk of fraud, waste, and abuse.

The Government Performance and Results Act Modernization Act of 2010 required Federal
agencies to develop a strategic plan that includes general goals and objectives, including
outcome-oriented goals, for the major functions and operations of the agency. The Office of
Management and Budget (OMB) Circular A-12314 requires that agency management have a
clear, organized strategy for ensuring effective internal controls and determining how to assess
the effectiveness of those controls.

Additionally, the Government Accountability Office (GAO) reported that these requirements can
serve as leading practices for planning at lower levels, within agencies, such as individual
divisions or programs, because developing goals and measures helps an organization balance
competing priorities, particularly if resources are constrained, and helps an agency assess
progress toward intended results. GAO has also identified six characteristics of an effective
strategy, consisting of (1) a purpose, scope, and methodology; (2) problem definition and risk
assessment; (3) goals, subordinate objectives, activities, and performance measures;
(4) resources, investments, and risk management; (5) organizational roles, responsibilities, and
coordination; and (6) integration and implementation (see Exhibit A). Incorporating these
characteristics into an integrated compliance strategy should help the agency effectively shape
policies, programs, priorities, and resource allocations and enable achievement of intended
results for the various compliance activities performed.15




14
 OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004.
15
 GAO Testimony GAO-12-276T, National Capital Region: 2010 Strategic Plan is Generally Consistent with
Characteristics of Effective Strategies, December 7, 2011.

4     AUDIT REPORT 03601-0001-22
While FSA has taken steps in the past in an effort to improve its compliance activities and
continues to take steps today, OIG maintains that the agency can strengthen its efforts to
establish efficient and effective internal controls by developing an integrated compliance strategy
that focuses on areas of the greatest risk. FSA’s Strategic Plan for FYs 2012 through 2016
identifies four goals: (1) provide a financial safety net for America’s farmers and ranchers to
sustain economically viable agricultural production; (2) increase stewardship of America’s
resources, while enhancing the environment; (3) ensure commodities are procured and distributed
effectively and efficiently to increase food security; and (4) transform and modernize FSA. FSA
officials told us that the strategic plan and various handbooks comprised the agency’s strategy.
The strategic plan, however, does not contain a clear, organized strategy for ensuring effective
internal controls, or for assessing the effectiveness of the controls in place, as required by OMB.
Likewise, the various handbooks did not provide for coordination of the compliance activities or
assessments of the effectiveness of the compliance reviews.

FSA acknowledged that over the last several years, the agency has not prioritized compliance
given decreases in staffing and administrative support. Instead, FSA focused resources on
mission critical program delivery efforts and continued to perform IPIA reviews, CORs, AGI
compliance reviews, and end-of-year reviews. OIG acknowledges that these reviews do serve to
identify noncompliance. FSA officials added that the agency has not experienced a material
increase in IPIA improper payment rates, and in most cases, improper payment rates have
decreased. Further, FSA established receivables to recover payments made to ineligible
recipients as a result of the AGI compliance efforts. In all of these important internal control
functions, OIG notes that FSA has made improvements, including re-structuring of the COR and
working toward verifying AGI compliance before FSA makes payments. OIG maintains that an
integrated compliance strategy should help the agency focus its limited resources on issues that
pose the greatest risk.

The first step to developing an integrated strategy is to identify a purpose, scope, and
methodology to address what FSA is trying to achieve through its compliance activities.
Although a purpose was established for each of the specific reviews, the scope and methodologies
for the reviews were not always ideally designed to meet the intended purpose of the review. To
address certain aspects of compliance, FSA established reviews such as NCRs, CORs, and IPIA
reviews. Specifically, the NCR’s purpose was to identify whether producers are complying with
program requirements, the COR’s purpose was to determine whether FSA’s county office staff
followed policy and procedures, and the IPIA review’s purpose was to determine the rate of
improper payments in farm programs. We found, however, that these reviews were broad and
did not always focus on areas of the greatest risks. If FSA reviewed its compliance activities as a
whole, it would learn that NCRs and CORs are not achieving their intended results (see
Findings 2 and 3). Likewise, FSA staff would learn that the IPIA reviews were not performed in
a manner to effectively identify all improper payments (see Finding 5).

In 2005, OIG reported that the FSA divisions had required compliance or internal reviews of
their numerous programs without evaluating the way these activities were deployed over the
years or their impact on operations.16 We concluded that FSA performed an excessive number of
compliance reviews to identify inaccurate payments or other deficiencies in its various farm


16
     OIG Audit 03601-0012-Ch, FSA Compliance Activities, September 30, 2005.

                                                                      AUDIT REPORT 03601-0001-22   5
programs. OIG also reported that FSA did not use reviews to identify systemic noncompliance
trends and direct its limited resources to known problem areas or determine the causes of
identified improper payments and take actions to correct those causes. In the prior report, we
concluded that FSA could achieve significant savings by employing advanced techniques, such
as statistical sampling or data mining, to select individual program participants for reviews or
spot checks for multiple purposes. To address the 2005 report, FSA developed the current NCR
process. However, in designing and implementing the NCR process, FSA did not take into
consideration the scope of other reviews, especially the COR program,17 and created a much
broader scope for the NCR than determining producer compliance. At present, NCRs encompass
a wide variety of program requirements and do not contain sufficient procedures to identify
causes of noncompliance. Steps to perform the reviews are general and do not provide for
specific verification of requirements, such as eligibility. Many of the steps focus on whether
county office staff is following policies and procedures and paperwork is complete, rather than
verifying producer compliance. We also found that without collecting complete and accurate
data for NCRs, program and State personnel cannot rely on the NCR results report to identify
noncompliance trends, direct limited resources towards areas of significant risk, or improve the
integrity of FSA programs (see Finding 2). By developing an integrated strategy for compliance,
FSA could better ensure that its different individual reviews contribute to FSA’s overall
compliance effort.

The second step to developing an integrated strategy is to identify the problems and risks that are
to be addressed. In general, OIG found that, although FSA performs many compliance-related
reviews, those reviews were not focused on problems posing the greatest risk. NCRs were too
broad to focus on specific risks, and did not contain sufficient procedures to address the
problems and risks (see Finding 2). CORs were not focused on overall program risk because
FSA had given States the flexibility to determine the scope of the reviews. Although FSA
implemented the COR program incorporating the concepts of OMB18 and GAO19 requirements
for internal control in its COR handbook,20 we found that the COR program itself did not have
the scope or resources needed to address the stated function as a strategic internal control
mechanism meant to ensure the effectiveness of internal controls over agency assets, measuring
farm programs’ effectiveness, or preventing and detecting fraud, waste, and abuse.

The third step to developing an integrated strategy is to establish goals, subordinate objectives,
and performance measures. Although FSA developed a strategic plan, it did not include an
overall goal for compliance or performance measures for each of FSA’s compliance activities.
The NCRs and CORs did not have specific goals or measures to gauge the effectiveness of the
reviews in identifying noncompliance, the causes, and corrective actions to mitigate the
noncompliance. Other reviews, such as the AGI compliance reviews21 and end-of-year



17
   COR reviews are not performed by the same group of individuals that perform NCRs.
18
   OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004.
19
   GAO/AIMD-00-21.3.1, GAO Standards for Internal Control in the Federal Government, November 1999.
20
   FSA Handbook 1-COR – County Operations Review Program, Revision 3, Amendment 24, December 27, 2006.
21
   The Food Conservation and Energy Act of 2008 established AGI limitations for program eligibility. Under a data-
sharing agreement with the Internal Revenue Service (IRS), IRS identifies program participants that may have
exceeded these limits. FSA then performs an AGI compliance review of those individual that appear to have
exceeded the limits to determine whether these producers complied with the AGI limitations.

6     AUDIT REPORT 03601-0001-22
reviews,22 were developed to address specific risks, but do not have goals or performance
measures for addressing those risks and ensuring corrective actions for systemic problems.

The fourth step to developing an integrated strategy is to identify resources, investments, and risk
management practices to allocate finite resources, as appropriate, and develop more effective
compliance activities to ensure that resources and compliance review procedures are focused on
the most significant risks. Significant reductions in resources over the years and changes in farm
programs brought about by the newly passed farm bill23 will continue to challenge FSA in its
efforts to ensure that its compliance activities are focused on the areas of most significant risks.
Efficient use of FSA’s limited resources is necessary, given the agency’s reduced budget and
staff. In FY 2010, FSA’s salaries and expense budget was $1.57 billion, but in FY 2013, it was
$1.4 billion, a decrease of more than $170 million, or almost 11 percent. Similarly, in FY 2010,
FSA had an employment ceiling of 12,578. During FY 2010, FSA had 8,743 county office
employees and 68 county operations reviewers. However, by the beginning of FY 2013, the
employment ceiling had fallen to 10,977 and there were only 7,768 county office employees and
51 county operations reviewers; a reduction of 11.2 percent in county office employees and
25.0 percent of county operations reviewers. As of April 2014, the number of county operation
reviewers had dropped to 46, a loss of 32.3 percent from FY 2010. Additionally, by the end of
FY 2018, over 40 percent of FSA’s staff with compliance activity responsibilities (those selected
headquarters positions identified above and State and county office employees) will be eligible
to retire, including over 37 percent of the county office employees and over 75 percent of the
county operations reviewers. Given these reductions, FSA issued guidance allowing staff to
curtail some of its compliance activities, though FSA staff acknowledged that this has resulted in
reduced program integrity.24 As more staff leave, there will be fewer staff available to perform
compliance activities, requiring FSA to prioritize its compliance activities to ensure that it is
performing those that are the most likely to minimize the risk of fraud, waste, and abuse.

The fifth and sixth steps to developing an integrated strategy are to identify organizational roles
and responsibilities, ensure efforts are coordinated, and foster effective implementation. Given
that FSA’s compliance activities are performed by different groups within FSA and its resources
are dwindling, the agency needs to review its compliance activities to establish an integrated
compliance strategy. By delineating organizational roles and responsibility, clarifying specific
roles, particularly where there is overlap, and coordinating among the different FSA groups, the
agency can better ensure that compliance activities are efficiently and effectively implemented.
This will help to prevent the implementation of reviews that are too broad to address problems
and risks, as occurred with the development of the NCRs.

22
   End-of-year reviews are conducted to ascertain that farming operations were carried out as represented when
initial determinations were made. The purpose of the end-of-year reviews is to maintain the integrity of payment
limitation and payment eligibility provisions.
23
   Public Law 113-79, Agricultural Act of 2014, signed February 7, 2014.
24
   FSA began issuing administrative operations notices (Notice AO-1506, Nonstatutory FSA Program
Recommendations for Cost Savings) to help reduce operating costs on April 27, 2011. Specifically, this notice and
comparable notices that followed (Notice AO-1508, dated May 9, 2011; Notice AO-1511, May 20, 2011; Notice
AO-1540, May 8, 2012; and Notice AO-1561, February 4, 2013) allowed FSA staff to not perform field
visit/compliance spot checks to measure acreage or production or prevented planted acreage as required by the
NCRs; prohibited FSA from using administrative travel funds to complete noninsured crop assistance program field
inspections; allowed the COR to be conducted off-site and limited the scope of the CORs so that they could be
conducted off-site; and reduced the frequency of required year-end analyses and chattel (security) inspections.

                                                                        AUDIT REPORT 03601-0001-22              7
OIG concludes that, by applying the OMB and GAO internal control concepts to develop an
integrated compliance strategy encompassing all compliance activities, FSA could better direct
its limited and dwindling resources to ensure that compliance activities are focused on the areas
of most significant risks. While we do acknowledge that FSA is performing useful compliance
functions, an overall strategy for compliance should assist the agency in making the most of its
increasingly limited resources.

Recommendation 1
Develop and implement an integrated compliance strategy to ensure that FSA’s compliance
activities are efficient and effective in reducing the potential for fraud, waste, and abuse.

Agency Response
In its July 18, 2014, response FSA stated:

       FSA agrees that an overarching integrated compliance strategy should be adopted.
       However, the design and detail of the strategy should be appropriate for the risk.
       Significant amounts of time and money can be spent designing and implementing an
       integrated strategy as described in the OIG report. Given the limited resources possessed
       by FSA we must assess all of our risk factors and allocate our limited resources to the
       highest risk areas. After assessing the key factors designed to measure compliance at
       FSA such as improper payment rates and default and loss rates for loans, we have
       concluded compliance, while important, is not a high risk for the agency at this time and
       therefore does not warrant the deployment of the necessary resources to design and
       implement a system as robust as suggested by the subject report. All relevant
       performance factors at FSA indicate, the programs are performing well with little
       comparative risk in relation to other more pressing needs.

       FSA proposes to create a subgroup to FSA’s Executive Leadership Council (ELC) that
       will meet semi-annually to evaluate FSA compliance activities to ensure such activities
       are accomplishing the agency’s overall mission. The subgroup will represent all FSA
       program areas and members will be appointed by applicable ELC members. The
       evaluation will include, but not limited to, the [review of] risk assessments done by
       program managers, input from State Executive Directors on issues being faced in the
       field, Office of Inspector General audit and investigation reports, U.S. Government
       Accountability Office reports, and various internal compliance reports.

We followed up with FSA on July 23, 2014, to determine the expected completion date for the
corrective action. FSA expects to create the ELC subgroup by December 31, 2014.

OIG Position
We are unable to reach management decision for this recommendation. We believe that FSA’s
proposed development and utilization of an ELC subgroup will be very beneficial to help FSA
ensure that it continuously monitors internal controls for compliance with laws and regulations.
By utilizing the program managers’ risk assessments, existing controls, and findings of this

8    AUDIT REPORT 03601-0001-22
subgroup, we believe that an overall strategy can be readily developed and put into place, as well
as updated as necessary though the semi-annual evaluations of the subgroup. Per OMB Circular
A-123, one of three major goals of establishing internal controls is to ensure compliance with
applicable laws and regulations. Through an agency’s organization, policies, and procedures,
internal controls are important tools to help program and financial managers achieve results and
safeguard the integrity of their programs. While we agree that an ongoing assessment of FSA’s
compliance activities is needed to address OMB Circular A-123 guidance that agency managers
should continuously monitor and improve the effectiveness of internal control associated with
their programs, an overall strategy is needed to ensure the efficiency and effectiveness of
compliance activities. As part of this process, agencies and individual Federal managers must
take systematic and proactive measures to develop and implement appropriate, cost-effective
internal control. The degree to which studies and analysis are performed will vary depending on
the complexity and risk associated with a given program or operation. OMB A-123 also states
that decisions made during this process should be documented and readily available for review.
An overall strategy should identify risks in particular programs, and ensure internal controls are
designed in a manner to mitigate those risks.

As pointed out in Finding 1, FSA continues to perform a number of reviews that contribute
toward compliance and addressing risks. Given the limited resources, FSA needs to implement
an integrated strategy for its compliance activities to ensure that those activities are efficient and
effective. To develop this strategy, FSA can draw upon the semi-annual evaluations by the ELC
subgroup as well as the risk assessments done by program managers and input from the various
groups. Continuous monitoring by the ELC subgroup should help provide the basis for the
agency head's annual assessment of and report on internal control, as required by the Federal
Manager’s Financial Integrity Act. Even though it is agency management’s responsibility to
determine the appropriate level of documentation needed to support this assessment,
documentation should be appropriately detailed and organized and contain sufficient information
to support management’s assertions.

To reach management decision, outline plans for documenting an overarching integrated
compliance strategy and the proposed date for implementation of the strategy.

Recommendation 2
Ensure that each of FSA’s compliance activities has a clearly defined goal that contributes to
FSA’s overall compliance strategy and that each activity is effectively designed to achieve that
purpose.

Agency Response
In its July 18, 2014, response FSA stated:

       While FSA maintains the agency’s current compliance activities are adequately defined in a
       manner that reflects the mission and goals of the agency, FSA management agrees it does not
       currently assess and monitor all compliance activities at the agency level.

       The subgroup [to the ELC] will report to ELC any deficiencies identified in the compliance
       activities and make recommendations to correct any weaknesses found and what potential

                                                                AUDIT REPORT 03601-0001-22          9
       risks may need additional compliance scrutiny. The ELC will be ultimately responsible for
       providing applicable program managers the guidance and direction for implementing FSA[‘s]
       compliance activities.

We followed up with FSA on July 23, 2014, to determine the expected completion date for the
corrective action. FSA expects to create the ELC subgroup by December 31, 2014.

OIG Position
We accept management decision.




10     AUDIT REPORT 03601-0001-22
Section 2:  Compliance Activities 
Finding 2: Changes to NCRs are Needed to Help Address Systemic Problems
In response to a prior OIG audit, FSA implemented National Compliance Reviews (NCRs),
which are intended to ensure that producers comply with farm program requirements. We found
that FSA could better design NCRs to identify the causes of producer noncompliance and to
track broader trends. Many of the steps for these reviews focus on whether county office staff is
following policies and procedures and whether paperwork is complete. Although OIG
acknowledges that such reviews are useful, we maintain that the area of greatest risk is producer
compliance with program requirements. When FSA designed and implemented the current NCR
process, the agency did not take into consideration the scope of other reviews and created a much
broader scope for the NCR process. Additionally, FSA officials told us that they did not have
funds to create a dedicated database, and had to rely on an agreement with NASS to store the
data collected during the reviews. Without collecting complete and accurate data for NCRs, FSA
program and State personnel cannot rely on the NCR results report to identify noncompliance
trends, direct limited resources towards areas of significant risk, or improve the integrity of FSA
programs.

According to FSA Handbook 2-CP, Acreage and Compliance Determinations, counties are
responsible for performing NCRs on all producers selected under the national selection process
for all programs subject to NCR in which the producer participates. The county office staffs then
document their responses to questions for each program in the NCR database, which is
controlled and maintained by NASS.25 NASS then generates a report that summarizes the results
of NCRs.

NCRs were developed and implemented in 2007 to address OIG’s 2005 audit report26 on
compliance activities. In that report, we concluded that FSA could achieve significant savings
by employing advanced techniques, such as statistical sampling or data mining, and by selecting
individual program participants for review. To reduce the number of reviews performed, FSA
decided to select a nationwide sample of producers and review all programs in which the
selected producers participate,27 rather than selecting individual farms, loans, contracts, etc., for
compliance reviews. The selection is made annually by the national office, using a statistical
sampling method.28



25
   FSA Handbook 2-CP, Acreage and Compliance Determinations, Revision 15, Amendment 74, August 21, 2012.
26
   OIG Audit 03601-0012-Ch, FSA Compliance Activities, September 30, 2005.
27
   Sixteen programs/ activities were included in the 2012 NCR: Asparagus Revenue Market Loss Program, Average
Crop Revenue Election, Biomass Crop Assistance Program, Conservation Reserve Program maintenance and
practice checks, Direct and Counter Cyclical Payment Program, Emergency Livestock Assistance Program, FSA-
578’s (Report of Acreage Form), Highly Erodible Land Conservation and Wetland Conservation Compliance, Loan
Deficiency Program / Market Assistance Loan, Livestock Forage Program (LFP) / Livestock Indemnity Program,
Milk Income Loss Program, Noninsured Crop Disaster Assistance Program (approved yield and general),
Reimbursement Transportation Cost Payment Program, Supplemental Revenue Assistance Program, Tree
Assistance Program, and Trade Adjustment Assistance for Farmers.
28
   NCRs are selected annually; however, the review is not limited to a specific fiscal or calendar year. The review
includes any application/contract approved for payment since the last NCR list.

                                                                       AUDIT REPORT 03601-0001-22              11
           FSA Needs to Ensure that NCRs Review Producer Compliance

           FSA Handbook 2-CP states that county offices are to conduct farm inspections to ensure
           producers comply with FSA program requirements.29 To facilitate the NCR process,
           FSA developed questionnaires for each program covered by the NCR. However, many
           of the steps focus on whether county office staff is following policies and procedures and
           ensuring that paperwork is complete, rather than verifying that producers complied with
           program requirements. For example, questions include “Was a valid signature obtained
           on the [Tree Assistance Program] TAP application in the administrative [c]ounty
           [o]ffice?”; “Did the applicant meet [risk management purchase requirement] or obtain a
           waiver on all [Noninsured Crop Disaster Assistance Program] NAP eligible or insurable
           crops?”; “Did the applicant meet definition of [socially disadvantaged applicant], limited
           resource, or beginning farmer or rancher?”; and “Was verifiable production record
           received in the county office for each eligible month before payment was issued to the
           dairy operation?” These questions require that the reviewer assess file documentation or
           determine whether the county office followed policy and procedures, not whether the
           producer complied with the requirements. As such, we concluded that NCRs are not
           focused on producer compliance and do not verify that the producers met eligibility
           requirements, as they were intended to be.

           Additionally, the questionnaires do not contain sufficient procedures to identify the
           causes of producer noncompliance. Instead, the steps to perform the reviews are general
           and do not provide for specific verification of requirements, such as eligibility. For
           example, the questionnaire asks, “did the [Milk Income Loss Contract] MILC program
           participant meet all eligibility criteria?” but does not provide detailed steps to indicate
           what the reviewer should do to make this determination so that the cause of
           noncompliance can be identified.

           FSA Needs to Improve its System to Ensure that the Results of Reviews are Adequately
           Tracked and Analyzed for Trends

           FSA Handbook 2-CP states that reports generated from the NCR database are intended to
           identify noncompliance trends, direct limited resources to known problem areas, and
           improve the integrity of FSA programs. The reports generated from the NCR database
           will consist of analysis that identifies any discrepancies, noncompliance trends, and
           problems, including errors resulting in improper payments and steps taken to reduce
           them.30

           We found, however, that the reports generated from the database were not sufficient to
           identify noncompliance trends, direct limited resources to known problem areas, and
           improve the integrity of FSA programs. First, the information captured by FSA was
           usually in a yes/no format, which did not identify the cause of the noncompliance. In
           order to determine the underlying causes, FSA officials stated they would have to request
           that the county office staff analyze each issue on a case-by-case basis. One FSA official


29
     FSA Handbook 2-CP, Acreage and Compliance Determinations, Revision 15, Amendment 74, August 21, 2012.
30
     FSA Handbook 2-CP, Acreage and Compliance Determinations, Revision 15, Amendment 74, August 21, 2012.

12        AUDIT REPORT 03601-0001-22
         stated the reports generated give some indication of an issue, but cannot really address
         systemic problems, since so little information is provided.

         Second, FSA did not always capture whether the determinations were based on a field
         visit. This information is vital to those utilizing the information as some of the programs
         would be best reviewed through a field visit. This information becomes even more
         important in light of guidance FSA issued to address its budget cuts.31 This guidance
         states that, during extreme budget shortages, county offices should try to avoid using
         travel funds to complete the acreage compliance reviews, and rely on digital imagery as
         much as possible to determine acreages. Additionally, the guidance states that, again,
         due to budget shortages, field visits will not be required to verify production for certain
         programs. The guidance stated that, if field inspections are not completed for producers
         selected for the NCR, the applicable producer’s program file folder will be documented
         for the reason why the field inspection was not completed. However FSA did not capture
         this information in the NCR database. Further, if reviewers answer the NCR questions
         based on their assumptions about a producer’s operations, instead of performing actual
         verification/validation of the information, the results may not be supported, which
         reduces the NCR’s effectiveness.

         Without collecting the level of detail necessary to identify if NCR reviews were
         completed based on a field visit, FSA officials limit their ability to use the NCR results
         report to identify risks and program vulnerabilities. During our review we noted that
         only two of the program questionnaires32 in FSA Handbook 2-CP specifically ask the
         reviewer to document whether a farm visit was conducted to complete the spot check.
         The NCR database does not capture this information and thus it is not made available to
         those utilizing the NCR results report.

         Third, FSA does not ensure that all reviews are completed or that the reason for non-
         completion is documented. OIG determined that, for the 2010 annual NCR, FSA county
         offices documented responses for at least one program for only 1,860 of the 2,000
         producers selected. For the 2011 annual NCR, the number of responses decreased to
         1,741 out of 2,000. Although FSA has procedures in place which require the county
         offices to document in the NCR database when a selected producer is not farming or
         participating in FSA programs during the year under review,33 we found that the NCR
         results report does not capture this information. As a result, report users do not know
         why reviews were not completed, which limits the usability of the data.



31
   FSA Notice AO-1561, Nonstatutory FSA Program Recommendations for Cost Savings, February 4, 2013.
32
   Marketing Assistance Loans and Loan Deficiency Payments.
33
   Because the national selection process is based in part on prior years’ payments and program participation, some
producers selected may not be farming or participating in FSA programs for the current year. FSA Handbook 2-CP
instructs the county office to notate “N/A” on the national producer selection list and forward the list to the District
Director for review, and for the District Director to review, initial, and date the list indicating their agreement that
the producer is not farming or participating in FSA programs for the year. In the cases where the District Directors
concur that a selected producer was not farming or participating in any FSA programs for the year, county offices
shall access each program survey in the NCR database and click “Not Applicable.” This will indicate that the
selected producer did not participate in the program for the year.

                                                                          AUDIT REPORT 03601-0001-22                 13
       Additionally, we found that the database lacks controls to ensure that followup questions
       are addressed by all required respondents and only by those required respondents. For
       example, the NAP questionnaire for the 2011 annual NCR asks, “Did the producer
       exceed the acreage or production tolerances when reporting acreage or production?” The
       NCR report noted a “yes” for 17 contracts for 7 producers. The following question asks,
       “If yes, did the [county office committee] determine the producer eligible or ineligible?”
       Sixteen contracts for six producers were noted here as eligible. One response was not
       captured. We also identified instances in the 2010 NCR Results where more respondents
       submitted information in response to a followup question than those that answered the
       question with the specific yes/no response. The Direct and Counter-Cyclical Payments
       Review for the 2010 annual NCR asks, “If fruits and vegetables were planted on base
       acres on the farm, does one of the fruit and vegetable planting exceptions apply?” In
       response, 131 contracts were marked yes for 69 producers. The followup question asked,
       “If yes, which exception applies?” In response, 165 responses were captured for contracts
       and 75 producers. These numbers exceed those that marked yes on the prior question.
       As such, the validity of the information of these reports is questionable.

       Finally, we found that the NCR results report does not identify whether an issue or
       noncompliance is nationwide or localized. For example, the 2011 annual NCR asks for
       the Conservation Reserve Program (CRP), “Has the approved cover been maintained
       according to conservation plan?” The NCR report noted that, for 14 contracts for 9
       producers, the reviewer answered “no.” However, an FSA official cannot determine if
       this problem is specific to a certain county or spread across the nation, which would be
       important for determining the magnitude of the problem and what type of corrective
       action is needed.

       In discussing these problems related to NCR, we learned that FSA officials believed the
       reviews had limitations. Officials stated the NCR database is a slow system that is not
       user-friendly and the State and national offices do not have access to monitor the progress
       of the counties as they complete the reviews and enter the information into the database.
       They stated that these problems occurred because FSA did not have the funds to develop
       a management system of its own, and thus relied on a NASS agreement to capture the
       results of the reviews and run reports.

       Based on these observations, we concluded that FSA could better design NCRs to serve
       its intended purpose of identifying trends of noncompliance, directing limited resources
       to known problem areas, and improving the integrity of FSA’s programs. FSA should
       revise the NCR process to ensure that it identifies the cause of errors or noncompliance,
       ensure that county offices are completing and accurately documenting all NCR results,
       and revise the reporting process to ensure FSA can identify potential systemic issues and
       develop appropriate corrective actions.

Recommendation 3
Revise the NCR process to ensure that it focuses on producer compliance and identifies the cause
of errors or noncompliance.



14     AUDIT REPORT 03601-0001-22
Agency Response
In its July 18, 2014, response FSA stated:

       FSA agrees with the recommendation. FSA will revise the NCR process for the 2014
       compliance year to focus on producer compliance and capture additional information to
       aid in identifying the causes of errors or noncompliance.

We followed up with FSA on July 23, 2014, to determine the expected completion date for the
corrective action. FSA expects to revise its NCR process for the 2014 compliance year by
December 31, 2014.

OIG Position
We accept management decision.

Recommendation 4
Ensure that county offices are completing and accurately documenting all NCR results..

Agency Response
In its July 18, 2014, response FSA stated:

       FSA agrees with the recommendation. For the 2014 compliance year FSA handbook 2-
       CP will be revised to require, in coordination with the Deputy Administrator for Field
       Operations, State offices ensure NCR reviews are completed by established deadlines. In
       addition, the NCR reporting process will be modified to identify those cases where a
       selected producer is not farming or participating in a program during the year under
       review.

We followed up with FSA on July 23, 2014, to determine the expected completion date for the
corrective action. FSA expects to make the revisions to the FSA Handbook 2-CP, including
changes to the NCR process, by December 31, 2014.

OIG Position
We accept management decision.

Recommendation 5
Revise the reporting process to ensure that FSA is capturing useful information from NCRs so
that FSA can identify potential systemic issues and develop appropriate corrective actions.




                                                          AUDIT REPORT 03601-0001-22       15
Agency Response
In its July 18, 2014, response FSA stated:

       FSA agrees with the recommendation. As noted in the responses for recommendations 3
       and 4, beginning with the 2014 compliance year FSA will capture more useful
       information to identify potential systemic issues and develop appropriate corrective
       actions.

We followed up with FSA on July 23, 2014, to determine the expected completion date for the
corrective action. FSA expects to capture the 2014 compliance year data by March 31, 2015.

OIG Position
We accept management decision.




16     AUDIT REPORT 03601-0001-22
Finding 3: Changes to County Operations Reviews Could Help FSA Improve
Review Effectiveness
FSA intended that its County Operation Reviews (CORs) would be a strategic internal control
mechanism that would improve county office administration of farm service programs. In
April 2013, FSA acknowledged that the COR program was not operating effectively because
there was a lack of uniformity in the scope of the reviews. This lack of uniformity does not
allow for meaningful analysis of findings on a national scale. As a result, FSA issued its plan to
change how it performs COR activities.34 Our review confirmed this observation and found that
FSA’s COR procedures were not sufficiently detailed, performed in a uniform manner,
adequately documented, or analyzed to report results of CORs on a nationwide basis. These
problems occurred because, since 2006, FSA’s ORAS allowed State executive directors
flexibility in determining the scope of CORs performed in their States. Furthermore, since 2006,
FSA’s national office has not updated COR policies and procedures to reflect changes in FSA’s
programs. FSA’s handbook did not provide sufficiently detailed review steps to ensure that
review steps were adequately performed and documented.35 We reviewed the latest two COR
reviews and concluded that the review steps still needed to be more detailed to ensure that the
steps were adequately performed. As a result, CORs were not sufficient to ensure that adequate
internal controls were in place and to determine whether controls over county office program and
administrative functions are appropriate, operating as intended, and effective.

FSA Handbook 1-COR states that The Federal Managers’ Financial Integrity Act of 1982
(FMFIA) requires performing detailed program and administrative reviews to ensure that
adequate internal controls and reporting of material weaknesses and nonconformance are
accomplished. The COR program is intended to meet the requirements of FMFIA for county
office operations. Further, the handbook states that the purpose of the CORs is to:

     ·   Improve county office administration of farm service programs by ensuring that
         operations comply with established policies and procedures.
     ·   Ensure the effectiveness of internal controls over agency assets.
     ·   Prevent and detect fraud, waste, and abuse.
     ·   Measure farm programs’ effectiveness.
     ·   Implement improvement actions and followup systems to ensure that deficiencies are
         corrected.
     ·   Determine whether controls over county office program and administrative functions are
         appropriate, operating as intended, and effective.

We found that FSA’s policies and procedures for performing CORs were not sufficient to ensure
that the reviews were uniform and consistent. For example, for some programs subject to

34
   Under the April 2013 revisions to the COR program, FSA stated that it would have the ORAS staff direct two
thirds of the county office reviewers’ time, requiring county office reviewers to perform nationally directed CORs,
including IPIA reviews, during that time. The remaining one third of the reviewers’ time will be directed by the
State. As of May 9, 2014, FSA had conducted and completed two nationally directed CORs. The nationally
directed CORs included lists of verification items and reportable findings. The results of these first two nationally
directed reviews were analyzed and summarized and reports were issued.
35
   FSA Handbook 1-COR, County Operations Review Program, Revision 3, Amendment 24, December 27, 2006,
hereinafter referred to as the “COR Handbook.”

                                                                         AUDIT REPORT 03601-0001-22                17
review, FSA provided what it termed “verification items” that should be examined during a
COR.36 However, many of these verification items were vague in nature. For example, for the
CRP, the verification items include, “appeals correctly handled,” “applicant met eligibility
requirements,” and “cropping history eligibility requirements met.” However, the verification
items did not provide details, such as how to determine that appeals were handled correctly, what
eligibility criteria are required to be tested, how they are to be tested, or how to determine
whether cropping history eligibility requirements are met. The CRP handbook37 establishes both
producer eligibility requirements (which include eligible person provisions, ownership
provisions, landlord/tenant provisions, AGI provisions, and Federal Crop Insurance
requirements) and land eligibility requirements. However, the COR Handbook does not clarify
which of these provisions must be verified or how these provisions are to be verified. For
example, when determining ownership, should the COR rely on an assertion (documented in the
file) that the producer owns the land or should the COR independently verify ownership of the
land, by checking courthouse records? We noted that even under the revised COR process, the
verification items continue to lack detailed review procedures. Without adequately detailed
review procedures, the extent of the review may not be sufficiently in-depth to achieve the goals
of the COR. Specifically, the review may not be sufficient to determine if noncompliance
actually exists or the cause of the noncompliance. As a result, FSA cannot ensure that the CORs,
as currently designed, are uniformly and consistently performed.

Additionally, we found that, for many programs, the COR Handbook did not include specific
verification items for numerous programs and activities, such as AGI operations, the Livestock
Indemnity Program, and Milk Income Loss Contracts. For these programs, the scope of the
review was left entirely to the discretion of the State or county operations reviewers. Further, we
found that some programs, such as Supplemental Revenue Assistance Payments, LFP,
Emergency Assistance for Honey Bees and Farm-raised Fish, and Average Crop Revenue
Election, were not included in the handbook.38 Since the scope of these reviews was not defined
by the handbook, they may have varied from State to State, making comparison of the results
impossible. Thus, FSA could not use the results of these reviews to identify potential trends.39

FSA’s ability to compare review results was further hindered by the lack of clearly documented
review procedures.40 For example, in one COR report, the reviewer explained that the county




36
   The Director of ORAS stated that FSA will continue to use verification items for the nationally directed CORs.
37
   Program requirements for CRP are found in FSA Handbook 2-CRP, Agricultural Resource Conservation
Program Handbook, Revision 5, amendment 17, August 7, 2013.
38
   The Supplemental Revenue Assistance Payments and Average Crop Revenue Election programs were not
extended by The Agricultural Act of 2014 (Public Law 113-79, February 7, 2014).
39
   The Director of ORAS stated that FSA will continue to use verification items for the nationally directed CORs,
but all verification items would be removed from the revised COR Handbook, thus leaving State-directed reviews
entirely at the discretion of the State. The director also stated that the results of State-directed reviews would not be
analyzed or summarized to identify trends.
40
   We had completed our field visits before FSA conducted its first nationally directed CORs; as such we were
unable to assess how these reviews were documented. However, we noted that as of May 9, 2014, FSA had not
issued any additional policies or procedures which would require more detailed documentation of work performed.

18       AUDIT REPORT 03601-0001-22
operations reviewer examined five LFP applications, and the items reviewed included FSA-
925s,41 county office committee minutes, CCC-926s,42AD-1026s,43 FSA-770 LFPs,44 power of
attorneys, eligible producer and eligible livestock, owner statements, pasture land leases, and
eligible cause of losses. However, the report did not state what was reviewed for each of these
documents or what information, if any, was verified by the reviewer. As a result, we were
unable to determine the purpose of the review and were unable to determine whether the
conclusions reached by the reviewer were supported.

Similarly, another COR report stated that the reviewer looked at payment eligibility
determinations. However, the COR report (and supporting documentation) did not indicate what
steps the reviewer performed or how the reviewer determined that there were no findings.
Because the reports did not clearly indicate what actions were performed during the review or
identify specifically what steps were performed, we cannot determine whether the reviewer was
validating that the determinations previously made were correct or whether the reviewer simply
evaluated whether determinations were documented. As such, we could not compare the results
reflected in the different reports, even when they are reviews of the same program.

OIG concluded that CORs are not achieving their intended purposes of preventing fraud, waste,
and abuse, and ensuring controls over county office program and administrative functions are
appropriate, operating as intended, and effective. To help ensure consistency and adequacy of
the reviews, FSA needs to develop more specific, detailed review procedures for each program
subject to COR to ensure that the same scope of work and methodology is being performed by
each reviewer. Once FSA has done this, FSA should be able to summarize and review the
results of CORs to identify trends or areas where improvement is needed.45

When we spoke to FSA officials about how CORs were being conducted, the Director of ORAS
stated that verification items were general in nature to allow the county operations reviewers to
use their own discretion as to how to accomplish the review. However, to ensure uniformity of
review and comparability of review results, FSA will need to develop more specific review steps,
identifying what is to be accomplished during the review and how it is to be done. FSA will also
need to capture more detail in the COR reports to clearly document the purpose of the review,
the actions completed during the review, and the outcome of those actions.

Additionally, FSA has lost many of its county operations reviewers, the staff who perform
CORs, which leaves the agency fewer resources to perform the necessary reviews. In
September 2010, FSA had 68 county operations reviewers. By April 2014, FSA’s staffing had
dropped to 46 county operations reviewers, a loss of over 32 percent of its reviewers. As we
discuss in Finding 1, FSA needs to consider its staffing reductions to ensure that it is performing
the most meaningful compliance activities, which may require further changes to the COR
process.



41
   Form FSA-925, Livestock Forage Disaster Program Application.
42
   Form CCC-926, Average Adjusted Gross Income Statement.
43
   Form AD-1026, Highly Erodible Land Conservation and Wetland Conservation Certification.
44
   Form FSA-770, LFP Livestock Forage Disaster Program Checklist.
45
   FSA has analyzed and summarized the results of its first two nationally directed CORs. However, FSA currently
does not have a policy or procedure that requires it to do so.

                                                                     AUDIT REPORT 03601-0001-22              19
Recommendation 6
Develop more specific, detailed county operations review procedures to ensure that reviews are
adequately and consistently performed and documented.

Agency Response
In its July 18, 2014, response FSA stated:

       FSA maintains that newly implemented procedures for National office-directed reviews
       provide more specific procedures that will ensure reviews are adequately and consistently
       performed.

       National CORP Training is being provided to COR’s August 26 and 27, 2014. This
       training will provide COR’s with the basic review skill required to conduct and document
       reviews in uniform manner.

We plan to issue FSA handbook 1-COR, Revision 4 by September 30, 2014. The revised
handbook will incorporate general guidance on CORP review policies and procedures.

OIG Position
We accept management decision

Recommendation 7
Analyze, summarize, and report COR results on a nationwide basis.

Agency Response
In its July 18, 2014, response FSA stated:

FSA has in the past and will continue in the future to analyze, summarize, and report CORP
review results. In the future only the results of National office-directed reviews and IPIA
reviews will be reported on a nationwide basis.

OIG Position
We are unable to accept management decision. Although FSA reports that it has in the past and
will continue in the future to analyze, summarize, and report county operations review results,
we noted that FSA previously stated that it was unable to perform meaningful analysis of the
results of the county operations reviews on a nationwide scale. We also acknowledge that FSA
did analyze, summarize, and report on its two most recently performed nationally directed
county operations reviews. However, FSA lacks a current policy or procedure, which would
ensure that these activities are routinely performed. To reach management decision, please
provide references to which policies or procedures will be revised to incorporate FSA’s intention
to analyze, summarize, and report the results of county operations reviews on a nationwide basis.

20     AUDIT REPORT 03601-0001-22
In addition, please also provide the timeframes for including these requirements into applicable
policies or procedures.

Finding 4: Changes to the Process for Monitoring Completion of Farm Loan
Reviews Could Help FSA Better Oversee Compliance with Farm Loan
Requirements
As part of its compliance activities for the FLP, FSA performs inspections of chattel security46
and year-end analyses.47 While FSA believes that these reviews are a relatively smaller portion
of FSA’s FLP compliance activities, which is comprised of activities including comprehensive
FLPRA, the completion of these reviews is essential to the success and integrity of FSA’s loan
portfolio. For FY 2012, FSA had a direct loan portfolio totaling $8.3 billion, and nearly 47
percent of FSA’s direct borrowers had loans secured by only chattel.48 With such a large amount
of loans at stake, the completion of these reviews is imperative to ensuring that FSA is aware of
situations which, if uncorrected, could lead to loan defaults or loss of loan security. During our
review of FSA’s compliance activities, we found that FSA cannot ensure chattel reviews or year-
end analyses are completed when required. The FSA national and State offices are unable to
accurately monitor the completion of these reviews because the Direct Loan System49 (DLS)
used to track the reviews does not identify which loans required a review. The completion of
required chattel reviews and year-end analyses helps FSA better manage its loan portfolio and
helps ensure that loans are adequately secured.

According to OMB Circular A-123,50 agencies are required to develop and monitor internal
controls to ensure programs are in compliance with laws and regulations and are protected from
waste, fraud, and mismanagement. Periodic reviews and reconciliations of data should be
included as part of the regular assigned duties of personnel, and reliable and timely information
should be communicated to relevant personnel at all levels within the agency. FSA
Handbook 4-FLP requires that chattel security be inspected annually, except in cases where the
authorized agency official has justified in the assessment or analysis that no undue risk exists.
However, all chattel security will be inspected at least every 2 years.51 Year-end analyses may
be performed at FSA’s discretion, except that they must be performed if the borrower has
received any direct loan, loan collateral subordination, or primary loan servicing action within
the last year; is financially distressed or delinquent; has a loan deferred; or is receiving a limited
resource interest rate on any loan.52

46
   The purpose of a chattel inspection is to confirm that the borrower retains possession of all of the property listed
in the security instrument and that it is being properly maintained.
47
   The purpose of the year-end analysis is to identify and evaluate significant changes in the borrower’s operations,
compare actual performance to projections and calculate the variances, and analyze how performance can be
improved.
48
   This includes the number of direct borrowers with loans secured only by (1) note or chattel, (2) machinery,
(3) livestock, or (4) crops; but does not include loans secured by real estate, a combination of real estate and chattel,
or bonds.
49
   The DLS is part of the FLP Information Delivery System. It is a single point of data-entry, web-based system. It
performs actions required to make and service loans. We did not assess the internal controls of this computer-based
application.
50
   OMB Circular A-123, Management’s Responsibility for Internal Controls, December 21, 2004.
51
   FSA Handbook 4-FLP, Regular Direct Loan Servicing, Amendment 16, May 10, 2013.
52
   FSA Handbook 1-FLP, General Program Administration, Revision 1, Amendment 87, August 19, 2013.

                                                                           AUDIT REPORT 03601-0001-22                21
A prior OIG audit report53 found that FSA was not completing all of the required chattel reviews
and year-end analyses. OIG recommended that FSA establish controls to ensure that FSA
county officials perform required annual inspections. In its response, FSA stated that the ability
to track and determine compliance with required annual inspections was made available to FSA
in April 2010 as part of the DLS automated system. FSA stated that this system allows State
executive directors and Farm Loan chiefs to determine compliance by county offices in their
respective States.

Despite these changes made by FSA, we found that FSA is still unable to adequately track and
ensure completion of required chattel reviews and year-end analyses. The national and State
offices are not able to accurately track which required chattel reviews and year-end analyses are
completed because DLS does not identify which loans require a review. While DLS is an
automated system, it does not automatically identify or schedule all required reviews. The
determination of whether a borrower requires a chattel review or year-end analysis is made at the
county office. If county office staff determines that a review is needed, they manually schedule
the review in DLS. If they determine that a review is not needed, they do not schedule a review
in DLS and the reason the review is not performed is documented and maintained in the case file
at the county office. However, since this information is not documented in DLS, the national
and State offices are not able to determine which borrowers that do not have a review scheduled
or completed in DLS actually require a review. For example, if a loan does not have a completed
chattel review in DLS for the year, the national and State offices do not know whether the review
was required and not completed or whether it was determined at the county office that the loan
was low risk and a review was not required. Since FSA cannot identify all reviews that are
required each year, they are unable to ensure that all required reviews are being completed.

FSA’s ability to monitor completion of chattel reviews and year-end analyses is further
complicated by its issuance of a temporary notice outlining recommended cost-saving
measures.54 Budget constraints have severely limited the number of reviews FSA is able to
complete. As a result, FSA has been forced to issue guidance that sets priorities on which
reviews should be completed. This notice recommends that States only review chattel security if
the borrower received an annual operating loan, is 90 calendar days or more past due on loan
payments, or requires additional FSA counseling. In addition, this notice also suggested
completing the year-end analyses only on borrowers who have received an annual operating loan
and are 90 calendar days or more past due. However, because DLS does not track which loans
require a review, FSA cannot ensure that it is even meeting the reduced review suggestions
outlined in this notice. If procedures and regulations are modified, as exemplified by this
administrative notice, FSA still needs to know the extent to which it is completing the reviews
required by regulation, as well as the ones required in the notice, so it can make supportable
changes to the procedures, handbooks, and potentially the regulations.

Officials at FSA’s national office stated that chattel reviews and year end analyses reflect only a
small portion of its compliance strategy and their loan portfolio performance has been
exceptional compared to commercial lending standards. In addition, they stated that because
FSA resources are inadequate to complete all chattel reviews and year-end analyses, they issued
the cost savings notice to give the counties discretion to determine, based on highest risk, those

53
     OIG Audit 03601-0018-Ch, FSA Farm Loan Security, August 2010.
54
     FSA Notice AO-1561, Nonstatutory FSA Program Recommendations for Cost Savings, February 4, 2013.

22        AUDIT REPORT 03601-0001-22
borrowers that needed chattel reviews and year end analyses. Additionally, an FSA official
stated that if concerns arise regarding whether chattel reviews are being completed when
required, the FLP staff could request a COR be performed to address the concern. We contend it
is important that FSA be aware of which borrowers require review and which borrowers are
actually reviewed, so it can determine compliance with FSA requirements. If FSA is unaware
that chattel reviews on specific properties have not been scheduled when required and
completed, FSA’s ability to make a recovery may be jeopardized. Without proper oversight of
chattel reviews and year-end analyses, FSA officials may not be aware of changes in borrower
operations that could adversely impact FSA’s loan portfolio and result in losses to the
Government. As such, we believe FSA should identify all chattel reviews and year-end analyses
that are required each year and ensure that they are completed or that there is sufficient
justification for those that are not completed.

Recommendation 8
Develop a process that identifies in any given year all chattel reviews and year-end analyses that
are required (according to criteria outlined in 1-FLP and 4-FLP) to be completed and all that are
actually completed to ensure counties are complying with FSA requirements. If a review is
determined to not be required, document in the tracking system why the review is not required.
If a review is required, but not completed (including required reviews that are not completed due
to a cost savings notice), document in the tracking system why the review was not completed, so
that FSA can ensure that all loans are periodically reviewed or that the lack of review was
justified.

Agency Response
In its July 18, 2014, response FSA stated:

       FSA will make no changes to DLS at this time (In the past several years, funds have been
       limited and are seldom even available for DLS.) and continue using existing system
       capabilities. FSA Handbook 1-FLP currently states that “The authorized agency official
       shall use knowledge, experience, and judgment to identify high-risk operations requiring
       such additional supervisory attention. Supervisory judgments must be objective and
       apply sound credit and financial management principles.” FSA loan officers who are
       authorized to approve loans in excess of $1 million can and should be trusted to make the
       decision on which accounts need attention under the currently issued notice giving them
       the discretion based on budgetary constraints. Language can be added to handbooks to
       strengthen the requirements that loan officers review accounts and schedule all required
       reviews for the current year in the system. If required reviews cannot be completed, the
       system will be updated with comments as to why a review was not completed.

The Farm Loan Programs Risk Assessment data inputs will be reviewed to determine a more
accurate way to measure if an office is completing all scheduled, required reviews and
inspections.




                                                            AUDIT REPORT 03601-0001-22         23
OIG Position
We are unable to reach management decision. We agree with adding language to FSA
handbooks to strengthen the requirements that loan officers review accounts, schedule all
required reviews, and update the system with comments to explain why a review was not
completed. Additionally, we agree that the Farm Loan Program Risk Assessment data inputs
should be reviewed to determine a more accurate way to measure whether an office is
completing all required reviews and inspections. To reach management decision, please provide
references to which handbooks and data inputs will be revised to strengthen or add these
requirements and timeframes for these updates.




24     AUDIT REPORT 03601-0001-22
Section 3:  Improper Payments 
Finding 5: Producer Eligibility Was Not Always Verified During Improper
Payment Information Act Reviews
We found that FSA needs to improve its IPIA review process to ensure that producer eligibility
is independently verified during the review process. The IPIA review procedures do not include
specific requirements to verify producer eligibility or the eligibility determinations that were
made by the county office committee or county executive director. This occurred because,
according to an FSA official, detailed review steps are not necessary and the review is not
designed to “second guess” determinations made by the county office committee or the county
executive director, when reviewed by the county office committee. As a result, inappropriate or
unsupported eligibility decisions may not be identified during the IPIA review, thereby allowing
ineligible individuals to go undetected. Additionally, this would allow improper payments to go
unreported.

The Improper Payments Information Act of 2002,55 as amended, requires that an agency identify
programs subject to improper payments, determine the rate of improper payments, and develop a
plan to reduce improper payments.56 An improper payment is any payment that should not have
been made or that was made in an incorrect amount under statutory, contractual, administrative,
or other legally applicable requirements.57 Improper payments also include any payment that
was made to an ineligible recipient. In addition, when an agency’s review is unable to discern
whether a payment was proper as a result of insufficient or lack of documentation, this payment
must also be considered an improper payment.

The Act anticipates that agencies will examine the risk of improper payments in all programs and
activities they administer. In addition, all agencies shall institute a systematic method of
reviewing all programs and identify programs susceptible to significant improper payments.
This systematic method could be a quantitative evaluation based on a statistical sample or it
could take into account risk factors likely to contribute to significant improper payments.
Among other things, the risk factors should include the complexity of the program or activity
reviewed, and whether payments or payment eligibility decisions are made outside of the agency,
for example, by a State or local government, or a regional Federal office.

Program eligibility determinations are generally made at the county office, usually by the county
office committee. County committee members are local farmers and ranchers, elected by their
peers to help with the decisions necessary to administer the programs in their counties and apply
their judgment and knowledge to make local decisions such as eligibility. The members are not
FSA employees. Each program has its own set of eligibility requirements. The county office is
responsible for documenting the determination in the producer’s files. However, we found that
FSA did not ensure that producer eligibility is independently verified during the IPIA review


55
   Public Law 107-330, Improper Payments Information Act of 2002, November 26, 2002.
56
   Public Law 111-204, Improper Payments Elimination and Recovery Act of 2010, July 22, 2010. This Act
amended the Improper Payments Information Act of 2002.
57
   OMB Memorandum M-11-16, Memorandum for the Heads of Executive Departments and Agencies, April 14,
2011.

                                                                 AUDIT REPORT 03601-0001-22              25
process. Although the IPIA questionnaire has a question about eligibility, we found that FSA
does not always actually verify that the eligibility determination was correct and supported. For
example, the CRP requires that the owner owned the land for 12 months before the close of
general signup offers, owned land for 12 months before submitting the offer for continuous
signup, acquired the land by will or succession as a result of death, or acquired the land under
circumstances other than for placement in CRP. The CRP questionnaire asks whether the
“producer meets the basic payment eligibility requirements,”58 but does not provide any
instruction as to how the reviewer should make this determination because the IPIA
questionnaires lack specific procedures to ensure that information is being independently verified
by the county operations reviewer.

Similarly, for the Direct and Countercyclical Payment /Average Crop Revenue Election
programs, the IPIA questionnaire asks whether the producer meets basic eligibility requirements.
However, there is no detailed guidance as to how the reviewer is to make this determination.
Additionally, in talking with one reviewer, we asked how the reviewer determined if a producer
met eligibility requirements. The reviewer stated that she would check the file to ensure that the
county office committee’s eligibility determination for that producer was documented and would
rely on that determination. We further discussed this with the Director of ORAS, who stated that
the reviews are not designed to “second guess” determinations made by the county office
committee or county executive director, as long as the county executive director’s determinations
were reviewed by the county office committee. As such, there is no assurance that producer
eligibility is being verified as part of the IPIA review.

In a recent audit report, GAO found that compliance (end-of-year) reviews conducted by FSA to
determine if farming operation members meet the payment eligibility requirements, such as
being actively engaged in farming, identified that producers are not always “actively engaged in
farming” which is a key eligibility requirement for some programs.59 To be considered “actively
engaged in farming” all program participants must provide significant contributions to the
farming operation. Contributions can consist of capital, land and/or equipment, as well as active
personal labor and/or active personal management. In addition, the management contribution
must be critical to the profitability of the farming operation and the contributions must be at
risk.60 During the reviews, FSA officials noted that the requirements for what constitutes a
management contribution are subjective and making such a determination is complex and subject
to interpretation.

Although FSA does not verify eligibility as part of the IPIA review, during the end-of-year
review process, FSA determined that 2.1 percent (11 of 534) of the participants claiming active
personal management were found not to have met the requirements for providing active personal
management. Similarly, 10.8 percent (14 of 130) of participants reviewed that claimed both
active personal management and personal labor contributions were found not to have met the


58
   FSA Handbook 2-CRP, Agricultural Resource Conservation Program, Revision 5, Amendment 17, August 7,
2013.
59
   GAO Audit, GAO-13-781, Farm Programs: Changes Are Needed to Eligibility Requirements for Being Actively
Involved in Farming, September 2013.
60
   FSA Handbook 4-PL, Payment Eligibility, Payment Limitation, and Average Adjusted Gross Income,
Amendment 20, August 29, 2013, and FSA Fact Sheet, Actively Engaged in Farming and Payment Limits,
January 2013.

26      AUDIT REPORT 03601-0001-22
requirements.61 This demonstrates that failure to meet producer eligibility requirements, such as
actively engaged in farming, may result in improper payments. Therefore, it is important that
FSA independently verify producer eligibility, including eligibility determinations made by the
county office committee or county executive director, as part of its IPIA testing. By
incorporating specific steps to verify producer eligibility, similar to the end-of-year review
process, into the IPIA review process, FSA could potentially identify more improper payments.

The Director of ORAS stated that FSA does verify all eligibility determinations, other than those
requiring county office committee judgments, based on the documentation required to be on file.
The Director further stated that he believed that more detailed review steps were not needed
because the county office reviewers have the program knowledge as to what constitutes
eligibility. However, we believe specific, detailed procedures for assessing eligibility are needed
to ensure that eligibility is independently verified during the IPIA review.

Recommendation 9
Include specific steps in its IPIA review process to ensure that producer eligibility, including
eligibility determinations made by the county office committee or county executive director, is
independently verified during the IPIA review process.

Agency Response
In its July 18, 2014, response FSA stated:

        When conducting IPIA reviews, COR’s verify whether all required documentation is on
        file and completed with sufficient information to support payment eligibility and the
        payment amount. If COR’s find cases where the documentation does not support the
        determination made, they are required to be report the issue. FSA’s long standing policy
        has been that COR’s are not to question a determination made by a County Committee
        (consisting of three to five producer elected members) which is based upon the
        committee member’s knowledge of local farming practices and/or a specific producer’s
        farming operation. FSA maintains that these kind of subjective determinations are not
        within the scope of a COR’s review. However, this policy is not applicable to non-COC
        determinations or determinations of a non-subjective nature.

FSA maintains the current IPIA review process has the adequate level of specific steps to ensure
that producer eligibility is independently verified. FSA also recognizes that not all COR’s may
have been properly trained in the basic requirements of how eligibility determinations are to be
verified and additional training and guidance may be needed.

OIG Position
We accept management decision.


61
  FSA’s end-of-year reviews are conducted on a judgmental selection of producers. As such, the results of the end-
of-year reviews cannot be projected to all producers.

                                                                      AUDIT REPORT 03601-0001-22               27
Scope and Methodology 
We conducted our fieldwork to determine if FSA's compliance activities were adequate to
achieve effective and efficient operations, ensure compliance with laws and regulations, and
ensure government resources are used to achieve intended program results. We evaluated the
impacts of staff and budget cuts, and the agency's restructuring on its compliance activities. We
reviewed the farm programs and FLPs under FSA; however, commodities were excluded from
our review because they are low risk.62 The audit covered FYs 2010 to 2013. To accomplish our
audit objectives, we performed fieldwork at the FSA national office in Washington, D.C., and at
four judgmentally selected FSA State offices. To select the judgmental sample, we ranked the
State offices based equally on FY 2012 expenditures, percentage of FSA offices closed between
FY 2009 and 2013, and percentage of incomplete AGI reviews for FYs 2009 and 2010. In
addition, we took into account recommendations from FSA staff. Based on these criteria, we
selected and performed our fieldwork at the FSA State offices in Athens, Georgia; Nashville,
Tennessee; and College Station, Texas. We also selected and performed fieldwork at the FSA
State office in Raleigh, North Carolina (which came in seventh in our rankings), due to its close
proximity.

During our fieldwork, we reviewed FSA compliance activities, including the NCR, COR, RMA
Spot Checks (performed by FSA), FSA spot checks (performed by the Natural Resources
Conservation Service), FLP reviews (including FLPRA, credit quality reviews, year-end
analysis, chattel reviews, and graduation reviews), IPIA reviews, AGI reviews, and end of year
reviews. We performed our audit work from January 2013 through March 2014.

To accomplish our objectives we:

     ·   Reviewed applicable laws, regulations, policies, procedures, FSA directives, handbooks,
         and other published guidance to gain sufficient knowledge to complete the audit.
     ·   Evaluated FSA’s organizational structure for compliance.
     ·   Evaluated FSA’s compliance strategy.
     ·   Interviewed FSA officials to gain an understanding of the roles and responsibilities for
         compliance.
     ·   Examined prior audits of FSA’s compliance structure and strategy and followed up on
         significant findings that affect our audit objectives.
     ·   Determined what reviews FSA performs to ensure compliance with program regulations
         and policies.
     ·   Evaluated FSA’s compliance reviews and activities to determine if they are effective and
         adequate at ensuring compliance with laws and regulations.
     ·   Identified and assessed the impact of reduced staffing on compliance activities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform our audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

62
  There has been little forfeiture of commodities into the CCC inventory for approximately 3 to 4 years.
Additionally, warehouse stored commodities are generally regulated by cooperatives that must meet USDA
requirements and perform spot checks and eligibility verifications. FSA monitors the work of the cooperatives.

28       AUDIT REPORT 03601-0001-22
based on our audit objectives. We believe that the evidence we obtained provides reasonable
basis for our findings based on our audit objectives.

We did not assess the data systems used by FSA as part of its compliance activities to determine
the overall reliability of these systems.




                                                           AUDIT REPORT 03601-0001-22         29
Abbreviations 
AGI ........................................Adjusted Gross Income
CCC........................................Commodity Credit Corporation
COR .......................................County Operation Review
CRP ........................................Conservation Reserve Program
DLS ........................................Direct Loan System
FLP .........................................Farm Loan Program
FLPRA ...................................Farm Loan Program Risk Assessment
FMFIA ...................................Federal Managers Financial Integrity Act
FSA ........................................Farm Service Agency
FY ..........................................Fiscal Year
GAO .......................................Government Accountability Office
IRS .........................................Internal Revenue Service
IPIA ........................................Improper Payment Information Act
LFP .........................................Livestock Forage Program
NASS .....................................National Agricultural Statistics Service
NCR .......................................National Compliance Review
OIG ........................................Office of Inspector General
OMB ......................................Office of Management and Budget
ORAS .....................................Operations Review and Analysis Staff
USDA.....................................Department of Agriculture




30       AUDIT REPORT 03601-0001-22
Exhibit A:  Six Desirable Strategy Characteristic63 

     Characteristics                  Description                                         Benefit
Purpose, scope, and       Addresses why the strategy was         A complete description of the purpose, scope, and
methodology               produced, the scope of its             methodology in a strategy could make the document
                          coverage, and the process by           more useful to the entities it is intended to guide, as
                          which it was developed.                well as to oversight organizations, such as Congress.
Problem definition and    Addresses the particular problems      Use of common definitions promotes more effective
risk assessment           and threats the strategy is directed   intergovernmental operations and more accurate
                          towards.                               monitoring of expenditures, thereby eliminating
                                                                 problematic concerns. Comprehensive assessments of
                                                                 vulnerabilities, including risk assessments, can help
                                                                 identify key factors external to an organization that can
                                                                 significantly affect that organization’s attainment of its
                                                                 goals and objectives and can help identify risk
                                                                 potential if such problem areas are not effectively
                                                                 addressed.
Goals, subordinate        Addresses what the strategy is         Better identification of priorities, milestones, and
objectives, activities,   trying to achieve, steps to            performance measures can aid implementing entities
and performance           achieve those results, as well as      in achieving results in specific time frames—and
measures                  the priorities, milestones, and        could enable more effective oversight and
                          performance measures to gauge          accountability.
                          results.
Resources,                Addresses what the strategy will       Guidance on resource, investment, and risk
investments, and risk     cost, the sources and types of         management could help implementing entities allocate
management                resources and investments needed,      resources and investments according to priorities and
                          and where resources and                constraints, track costs and performance, and shift such
                          investments should be targeted         investments and resources as appropriate. Such
                          based on balancing risk reductions     guidance could also assist organizations in developing
                          with costs.                            more effective programs to stimulate desired
                                                                 investments, enhance preparedness, and leverage finite
                                                                 resources.
Organizational roles,     Addresses who will be                  Inclusion of this characteristic in a strategy could be
responsibilities, and     implementing the strategy, what        useful to organizations and other stakeholders in
coordination              their roles will be compared to        fostering coordination and clarifying specific roles,
                          others, and mechanisms for them        particularly where there is overlap, and thus enhancing
                          to coordinate their efforts.           both implementation and accountability
Integration and           Addresses how a strategy relates to    Information on this characteristic in a strategy could
implementation            other strategies’ goals, objectives,   build on the aforementioned organizational roles and
                          and activities (horizontal             responsibilities— and thus further clarify the
                          integration), and to subordinate       relationships between various implementing entities,
                          levels of government and their         both vertically and horizontally. This, in turn, could
                          plans to implement the strategy        foster effective implementation and accountability.
                          (vertical integration).

The above chart lists the six desirable characteristics of a strategy and provides a description of
these characteristics and the benefits provided by these characteristics.


63
 GAO Testimony GAO-12-276T, “National Capital Region: 2010 Strategic Plan is Generally Consistent with
Characteristics of Effective Strategies,” December 7, 2011.

                                                                        AUDIT REPORT 03601-0001-22                 31
32   AUDIT REPORT 03601-0001-22
Agency's Response




                  USDA’S
           FARM SERVICE AGENCY
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 03601-0001-22   33
Farm and             Date:        July 18, 2014
Foreign
Agricultural
Services
                     TO:          Gil H. Harden
Farm                              Assistant Inspector General for Audit
Service
Agency                            Office of Inspector General
Operations Review
and Analysis Staff   FROM:        Philip Sharp, Director
                                  Operations Review and Analysis Staff
1400 Independence
Ave, SW
Stop 0540            SUBJECT: Response to Official Draft Report, Farm Service Agency Compliance
Washington, DC
20250-0540                    Activities, Audit 03601-0001-22

                     The Farm Service Agency (FSA) acknowledges that over the last 2 to 3 years, compliance
                     efforts have not been a top priority for the agency given the budget situation that caused
                     decreased staffing and administrative support resources. FSA has focused resources on
                     mission critical program delivery efforts. FSA has continued to accomplish Improper
                     Payment Information Act of 2002 (IPIA) reviews, County Operations Review Program
                     (CORP) reviews, Adjusted Gross Income (AGI) compliance efforts, National Compliance
                     Reviews (NCR), chattel checks, end-of-year reviews, and other internal controls functions.
                     In all of these important internal control functions, FSA continues to make process
                     improvements such as the re-structuring of the CORP and the improvements in both our
                     AGI compliance efforts and identification of deceased producers. FSA has not experienced
                     any material increase in error rates or cases of non-compliance. In fact most improper
                     payment rates have decreased in recent years and losses on direct and guaranteed loans are
                     at an all-time low. FSA understands the report identified areas where the agency did not
                     complete all parts of every process and there may be some overlap; however the impact to
                     program operations appears to be insignificant.

                     The following is FSA’s response to the subject report’s findings and recommendations:

                     Finding 1: An Overall Integrated Compliance Strategy Could Help FSA Better Use Its
                                Limited Resources

                     FSA Response:

                     FSA agrees that an overarching integrated compliance strategy should be adopted. However,
                     the design and detail of the strategy should be appropriate for the risk. Significant amounts
                     of time and money can be spent designing and implementing an integrated strategy as
                     described in the OIG report. Given the limited resources possessed by FSA we must assess
                     all of our risk factors and allocate our limited resources to the highest risk areas. After
                     assessing the key factors designed to measure compliance at FSA such as improper payment
                     rates and default and loss rates for loans, we have concluded compliance, while important, is
                     not a high risk for the agency at this time and therefore does not warrant the deployment of
                     the necessary resources to design and implement a system as robust as suggested by the
                     subject report. All relevant performance factors at FSA indicate, the programs are
                     performing well with little comparative risk in relation to other more pressing needs.


                                            USDA is an equal opportunity provider and employer.
Gil H. Harden
Page 2

Recommendation 1:

Develop and implement an integrated compliance strategy to ensure that FSA’s compliance
activities are efficient and effective in reducing the potential for fraud, waste, and abuse.

Recommendation 2:

Ensure that each of FSA’s compliance activities has a clearly defined goal that contributes
to FSA’s overall compliance strategy and that each activity is effectively designed to
achieve that purpose.

FSA Response:

While FSA maintains the agency’s current compliance activities are adequately defined in a
manner that reflects the mission and goals of the agency, FSA management agrees it does
not currently assess and monitor all compliance activities at the agency level.

FSA proposes to create a subgroup to FSA’s Executive Leadership Council (ELC) that will
meet semi-annually to evaluate FSA compliance activities to ensure such activities are
accomplishing the agency’s overall mission. The subgroup will represent all FSA program
areas and members will be appointed by applicable ELC members. The evaluation will
include, but not limited to, the of review risk assessments done by program managers, input
from State Executive Directors on issues being faced in the field, Office of Inspector
General audit and investigation reports, U.S. Government Accountability Office reports, and
various internal compliance reports. The subgroup will report to ELC any deficiencies
identified in the compliance activities and make recommendations to correct any
weaknesses found and what potential risks may need additional compliance scrutiny. The
ELC will be ultimately responsible for providing applicable program managers the guidance
and direction for implementing FSAs’ compliance activities.

Finding 2: Changes to NCRs are Needed to Help Address Systemic Problems

Recommendation 3:

Revise the NCR process to ensure that it focuses on producer compliance and identifies the
cause of errors or noncompliance.

FSA Response:

FSA agrees with the recommendation. FSA will revise the NCR process for the 2014
compliance year to focus on producer compliance and capture additional information to aid
in identifying the causes of errors or noncompliance.
Gil H. Harden
Page 3

Recommendation 4:

Ensure county offices are completing and accurately documenting all NCR results.

FSA Response:

FSA agrees with the recommendation. For the 2014 compliance year FSA handbook 2-CP
will be revised to require, in coordination with the Deputy Administrator for Field
Operations, State offices ensure NCR reviews are completed by established deadlines. In
addition, the NCR reporting process will be modified to identify those cases where a
selected producer is not farming or participating in a program during the year under review.

Recommendation 5:

Revise the reporting process to ensure that FSA is capturing useful information from NCRs
so that FSA can identify potential systemic issues and develop appropriate corrective
actions.

FSA Response:

FSA agrees with the recommendation. As noted in the responses for recommendations 3
and 4, beginning with the 2014 compliance year FSA will capture more useful information
to identify potential systemic issues and develop appropriate corrective actions.

Finding 3: Changes to County Operations Reviews Could Help FSA Improve Review
           Effectiveness

FSA Response:

As noted in the report, FSA had already recognized the need to improve the CORP due to
the lack of uniformity in reports. Beginning in Fiscal Year 2013, FSA implemented
National Office-directed reviews where the scope of review is defined in a manner that will
provide reasonable assurance that the reviews are conducted and documented in a uniform
manner, allowing for an analysis and summarization of review results on a nationwide basis.

OIG stated they reviewed the results of FSA’s first two National Office-directed reviews
and concluded that the review steps still needed to be more detailed to ensure that the steps
were adequately performed. The auditors did not provide any insight on why they came to
that conclusion; however, FSA respectfully disagrees with that conclusion. FSA believes
the instruction and guidance provided to the County Operations Reviewers (COR’s) was
adequate to perform these reviews in a manner which accomplished the goals of the
reviews. FSA is confident that the reviews were conducted uniformly and the results are
accurate reflection of the operation targeted.
Gil H. Harden
Page 4

CORP reviews are management reviews and as such are not conducted in accordance with
general auditing standards. The individual review reports are internal to the Agency and not
normally available to the public. CORP reviews are conducted by COR’s who are
employees of FSA who have extensive FSA county office experience and are
knowledgeable in the programs administered by FSA.

FSA agrees that a COR needs to clearly understand the scope of the review, but FSA does
not see the need to have a detailed scope be repeated in every report issued. For National
Office-directed reviews the scope is defined in the applicable FSA directive that announces
the review. Along with the scope, the goals of the review will be addressed. Also included
in the specific directive are verifications items, defined as thought provoking statements or
questions. In addition to the verification items, a list of possible reportable findings are
provided to the COR’s that further defines the scope. Combined with all this information
and the basic review skills COR are trained in, FSA maintains there is no need for a
“detailed” step by step procedure on how a specific review needs to be conducted, provided
COR’s are adequately trained in basic review skills.

The subject report indicates that verifications items FSA used in the past are vague in
nature. FSA acknowledges the FSA Handbook 1-COR, Revision 3 has not been updated
since 2006 and that many of the verification items are outdated; however, FSA disagrees
that verification items were vague in nature. Verification items are designed to be thought
provoking statements or questions and the intended to be used by COR’s who are familiar
with FSA program or operations. Verification items have been written in the same manner
since 1987 when CORP was first implemented and no previous OIG report that accessed
CORP took exception to this methodology. Verification items will not be included in the
FSA Handbook 1-COR, Revision 4. Verification will now be included only in specific
directives issued defining the scope of each future National Office-directed review.

Recommendation 6:

Develop more specific, detailed county operations review procedures to ensure that reviews
are adequately and consistently performed and documented.

FSA Response:

FSA maintains that newly implemented procedures for National Office-directed reviews
provide more specific procedures that will ensure reviews are adequately and consistently
performed.

National CORP Training is being provided to COR’s August 26 and 27, 2014. This training
will provide COR’s with the basic review skill required to conduct and document reviews in
uniform manner.

We plan to issue FSA handbook 1-COR, Revision 4 by September 30, 2014. The revised
handbook will incorporate general guidance on CORP review policies and procedures.
Gil H. Harden
Page 5

Recommendation 7:

Analyze, summarize, and report County Operation results on a nationwide basis.

FSA Response:

FSA has in the past and will continue in the future to analyze, summarize, and report CORP
review results. In the future only the results of National Office-directed reviews and IPIA
reviews will be reported on a nationwide basis.

Finding 4: Changes to the Process for Monitoring Completion of Farm Loan Reviews
           Could Help FSA Better Oversee Compliance with Farm Loan Requirements

FSA Response:

While FSA agrees that not all Farm Loan reviews are being completed, FSA disagrees with
OIG that the inability to do so is in any way essential to the success and integrity of the loan
portfolio as the report suggests. Losses on direct loans are at an all-time low of 1.6% for
direct loans and 0.3% for guaranteed loans. Most if not all direct loans are secured at a level
significantly greater than the outstanding balance leaving little chance of losses occurring
and certainly not warranting the expense of revising the IT systems to accommodate the
proposed recommendations contained in this report.

Recommendation 8:

Develop a process that identifies in any given year all chattel reviews and year-end analyses
that are required (according to criteria outlined in 1-FLP and 4-FLP) to be completed and all
that are actually completed to ensure counties are complying with FSA requirements. If a
review is determined to not be required, document in the tracking system why the review is
not required. If a review is required, but not completed (including required reviews that are
not completed due to a cost savings notice), document in the tracking system why the
review was not completed, so that FSA can ensure that all loans are periodically reviewed or
that the lack of review was justified.

FSA Response:

FSA will make no changes to Direct Loan System (DLS) at this time (In the past several
years, funds have been limited and are seldom even available for DLS.) and continue using
existing system capabilities. FSA Handbook 1-FLP currently states that “The authorized
agency official shall use knowledge, experience, and judgment to identify high-risk
operations requiring such additional supervisory attention. Supervisory judgments must be
objective and apply sound credit and financial management principles.” FSA loan officers
who are authorized to approve loans in excess of $1 million can and should be trusted to
make the decision on which accounts need attention under the currently issued notice giving
them the discretion based on budgetary constraints. Language can be added to handbooks to
strengthen the requirements that loan officers review accounts and schedule all required
Gil H. Harden
Page 6

reviews for the current year in the system. If required reviews cannot be completed, the
system will be updated with comments as to why a review was not completed.

The Farm Loan Programs Risk Assessment data inputs will be reviewed to determine a
more accurate way to measure if an office is completing all scheduled, required reviews and
inspections.

Finding 5: Producer Eligibility Was Not Always Verified During Improper payment
           Information Act Reviews.

FSA Response:

FSA disagrees that producer eligibility is not being verified during IPIA reviews. FSA
maintains that the instructions and guidance provided to the COR’s conducting the review is
sufficient to ensure producer eligibility is being independently verified. The methodology
used to conduct IPIA reviews has not changed since we first began conducting IPIA reviews
in 2006. This process was audited by OIG in 2007 (OIG Audit Report 03601-0016-CH) and
at that time OIG concluded that the process used by FSA was sufficient and would result in
reliable estimates of improper payments.

When conducting IPIA reviews, COR’s verify whether all required documentation is on file
and completed with sufficient information to support payment eligibility and the payment
amount. If COR’s find cases where the documentation does not support the determination
made, they are required to be report the issue. FSA’s long standing policy has been that
COR’s are not to question a determination made by a County Committee (consisting of
three to five producer elected members) which is based upon the committee member’s
knowledge of local farming practices and/or a specific producer’s farming operation. FSA
maintains that these kind of subjective determinations are not within the scope of a COR’s
review. However, this policy is not applicable to non-COC determinations or
determinations of a non-subjective nature.
.
FSA maintains IPIA review questionnaires are written with enough specificity for the COR
to understand how they are to verify eligibility. COR’s are experienced FSA employees
with extensive knowledge of FSA programs and operations and knows how to verify
eligibility, be it producer, land, crop, etc. They are trained in the CORP review process and
do not need be provided “detailed” step by step procedures for assessing eligibility.
Program requirements are already defined in applicable directives and what kind of
documentation that is needed to support eligibility and these procedures do not need to be
repeated.

End-of-year reviews referenced in the report are conducted to determine that farming
operations were carried out as represented when initial determinations were made. These
reviews are conducted by a team of FSA employees and in most cases take a considerable
amount of time to complete. These reviews require producers to provide additional
documentation that was not required to make the initial eligibility determination. These
reviews are producer compliance reviews and are not conducive to the IPIA review process.
Gil H. Harden
Page 7

The suggestion that FSA could incorporate specific steps to verify producer eligibility into
the IPIA review process reflects a misunderstanding of the end-of-year process.

Recommendation 9:

Include specific steps in its Improper Payment Information Act (IPIA) review process to
ensure that producer eligibility, including eligibility determinations made by the county
office committee or county executive director, is independently verified during the IPIA
review.

FSA Response:

FSA maintains the current IPIA review process has the adequate level of specific steps to
ensure that producer eligibility is independently verified. FSA also recognizes that not all
COR’s may have been properly trained in the basic requirements of how eligibility
determinations are to be verified and additional training and guidance may be needed.

National CORP Training is being provided to COR’s August 26 and 27, 2014. This training
will include what is expected of COR’s when verifying eligibility determinations.

We plan to issue FSA handbook 1-COR, Revision 4 by September 30, 2014. The revised
handbook will incorporate general guidance on how eligibility determinations are to be
reviewed.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
